           Office of Inspector General




March 17, 2005

ALEXANDER LAZAROFF
VICE PRESIDENT, EASTERN AREA OPERATIONS

SUBJECT:         Audit Report – Surface Transportation – Bulk Mail Center Highway
                 Transportation Routes – Eastern Area (Report Number NL-AR-05-003)

This report presents results of our Bulk Mail Center Highway Transportation Routes
audit (Project Number 04YG013NL001). Our objectives were to evaluate the
effectiveness of bulk mail center routes and identify opportunities for cost savings. This
report responds to a request from the vice president, Network Operations Management,
and focuses on routes controlled by the Eastern Area.

The Postal Service could save about $4.8 million over the term of existing Eastern Area
bulk mail highway contracts by canceling, not renewing, or modifying 35 trips. The
savings represent potential funds that could be put to better use and will be reported as
such in our Semiannual Report to Congress. The Postal Service could eliminate or
modify the trips without negatively affecting service because trip volume was low and
mail could be consolidated on other trips. After we completed our assessment, we
discussed the 35 trips with area transportation managers. The managers agreed they
would terminate, modify, or substitute for 29 trips, but disagreed with our assessment of
6 trips. We recommended the vice president, Eastern Area Operations (1) verify the
actual cancellation, modification, or substitution of the 29 trips, and (2) reassess the
6 trips managers feel are still necessary. Management stated that 25 trips had already
been modified and 4 were in review or negotiation. They also agreed to reassess the
remaining six trips within 60 days. Management’s comments, and our evaluation of
their comments, are included in this report.

The Office of Inspector General (OIG) considers recommendations 1 and 2 significant,
and therefore requires OIG concurrence before closure. Consequently, the OIG
requests written confirmation when corrective actions are completed. These
recommendations should not be closed in the follow-up tracking system until the OIG
provides written confirmation the recommendations can be closed.




   1735 N Lynn St.
   Arlington, VA 22209-2020
   (703) 248-2100
   Fax: (703) 248-2256
We appreciate the cooperation and courtesies provided by your staff during our work. If
you have any questions or need additional information, please contact Joe Oliva,
Director, Transportation, or me at (703) 248-2300.


/s/ Mary W. Demory

Mary W. Demory
Deputy Assistant Inspector General
 for Core Operations

Attachments

cc: Patrick R. Donahoe
    Paul E. Vogel
    Anthony M. Pajunas
    Steven R. Phelps
Surface Transportation – Bulk Mail Center Highway                                  NL-AR-05-003
 Transportation Routes – Eastern Area


                                        INTRODUCTION
 Background                    Bulk mail includes magazines, advertising, and
                               merchandise shipped by major mailers like publishers,
                               catalog companies, or on-line retail companies. It is
                               processed by a system of 21 bulk mail centers and other
                               facilities nationwide. The Postal Service spends more than
                               $500 million annually on contracts to transport bulk mail
                               over highway networks. Contracted routes are controlled by
                               individual Postal Service areas.

                               This report focuses on the routes controlled by the Eastern
                               Area and responds to a request from the vice president,
                               Network Operations Management.

 Objectives, Scope,            The objectives of our audit were to evaluate the
 and Methodology               effectiveness of scheduled bulk mail center highway
                               transportation routes and to identify opportunities for cost
                               savings.

                               Using Postal Service computer-generated data, we
                               identified 1,338 trips operated under 176 Eastern Area
                               contracts that had at least one bulk mail center service
                               point. In preparation for our work, we provided area officials
                               and Postal Service managers with the list of Eastern Area
                               contracts we intended to audit. During our work, we
                               interviewed officials at headquarters and in the Eastern
                               Area; reviewed relevant Postal Service policies and
                               procedures; visited three bulk mail centers; interviewed
                               managers and employees; and observed and photographed
                               operations. We consulted with financial analysts, computer
                               analysts, and other subject matter experts; evaluated mail
                               volume and the type of mail carried; considered service
                               standards; and analyzed all 1,338 trips. We discussed our
                               observations and conclusions with appropriate management
                               officials and included their comments where appropriate.

                               We conducted work associated with this report from
                               March 2004 through March 2005 in accordance with
                               generally accepted government auditing standards and
                               included such tests of internal controls that we considered
                               necessary under the circumstances.




                                                    1
Surface Transportation – Bulk Mail Center Highway                                    NL-AR-05-003
 Transportation Routes – Eastern Area



 Data Limitations              During our audit, we examined computer data in
                               management’s Transportation Contract Support System and
                               Transportation Information Management Evaluation System.
                               We did not audit or comprehensively validate the data;
                               however, we noted several control weaknesses that
                               constrained our work. For example, the Transportation
                               Information Management Evaluation System had missing
                               records and inaccurate trailer load volumes. Even though
                               data limitations constrained our work, we were able to
                               partially compensate by applying alternate audit procedures,
                               including source document examination, observation,
                               physical inspection, and discussion with responsible
                               officials. We also applied conservative principles to our
                               monetary impact estimates, and accordingly, always
                               selected the most restrained assessment.

 Prior Audit Coverage          Over a two-year period, the Office of Inspector General
                               issued ten audit reports covering evaluation of highway
                               contract routes, and has worked with the Postal Service to
                               identify 1,011 highway contract trip eliminations,
                               consolidations or modifications, potentially resulting in
                               savings of $50.5 million over the life of the contracts. The
                               Postal Service eliminated or modified most of these trips
                               without negatively affecting service or operational flexibility
                               because mail volume was low and mail could be
                               consolidated on other trips. For more detailed information
                               about these audits, see Appendix A.




                                                    2
Surface Transportation – Bulk Mail Center Highway                                   NL-AR-05-003
 Transportation Routes – Eastern Area


                                       AUDIT RESULTS

 Contracted Bulk Mail          The Postal Service could save about $4.8 million over the
 Center Highway Trips          term of existing Eastern Area bulk mail highway contracts
                               by canceling, not renewing, or modifying 35 trips. The
                               Postal Service could eliminate the trips without negatively
                               affecting service because trip mail volume was low and mail
                               could be consolidated on other trips. As indicated below,
                               about 60 percent of affected trips will expire within one year.
                               The other 40 percent have one to three years remaining.

                                           PROPOSED NONRENEWALS AND CANCELLATIONS

                                          TRIP            AFFECTED      NUMBER     ESTIMATED
                                        CATEGORY            TRIPS       OF TRIPS    SAVINGS

                                  Contracts expiring
                                  within one year          60 percent      21       $3,876,998

                                  Contracts expiring in
                                  one to three years       40 percent      14         914,572

                                  All terminated trips    100 percent      35       $4,791,570


                               Postal Service policy requires transportation managers to
                               balance service and cost. Although managers continually
                               strive to optimize transportation through aggressive cost




   Highway transportation
   contractor departing the
 Greensboro Bulk Mail Center
     November 29, 2004.




                               cutting efforts such as their breakthrough productivity
                               initiative, transportation requirements are dynamic and
                               constantly change. Consequently, the Postal Service could
                               attain additional savings through further service reductions


                                                    3
Surface Transportation – Bulk Mail Center Highway                                                        NL-AR-05-003
 Transportation Routes – Eastern Area


                               by not renewing unnecessary trips that are scheduled
                               to expire within one year, or by canceling unnecessary
                               trips that are currently contracted to continue for
                               one to three years. The savings we identified included
                               savings from nonrenewable trips, plus savings from
                               trip cancellations, net of cancellation fees totaling
                               approximately $123,488.

 Cooperative Effort and        As a result of our continuing efforts to partner with and bring
 Rapid Implementation          value to the Postal Service, we had ongoing communication
                               with Eastern Area officials throughout our audit. After we
                               completed our analysis, we provided Eastern Area officials
                               with a list of our specific trip proposals and the officials
                               reviewed each proposal in conjunction with their own
                               assessment of area-wide network requirements. After the
                               area's review, we met with area officials, discussed our
                               proposals and area operational needs, and made
                               appropriate adjustments to our proposals.

                               As a result of the cooperative effort, the area agreed with
                               the 29 proposals outlined in Appendix B and disagreed with
                               the 6 proposals outlined in Appendix C.

                                          PROPOSED TRIP CANCELLATIONS OR MODIFICATIONS

                                          CANCELLATION                   NUMBER                          ESTIMATED
                                            CATEGORY                     OF TRIPS       APPENDIX          SAVINGS

                                  Proposals with which area
                                  officials agreed                             29             B           $4,286,710

                                  Proposals with which area
                                  officials disagreed                           6             C              504,859

                                  Total                                        35                        $4,791,570*

                                  *Due to rounding differences from the source documentation, totals vary slightly when
                                  recalculated.


                               Area officials disagreed with the six proposals for various
                               reasons. However, they agreed to immediately reassess
                               those proposals they disagreed with, have already made
                               contract changes covering most of the 29 proposals they
                               agreed with, and are continuing to implement the remaining
                               changes.




                                                        4
Surface Transportation – Bulk Mail Center Highway                                 NL-AR-05-003
 Transportation Routes – Eastern Area



 Exit Conference               We conducted an exit conference with Eastern Area officials
                               on January 31, 2005, and discussed their rapid
                               implementation of our proposals. The area provided
                               documentation that indicated actual savings were
                               $90,562 less than our estimated annual savings
                               ($582,894 versus $673,456). Actual annual savings are
                               different from our estimates primarily because they were
                               negotiated. They were also different because of varying
                               underlying factors that are contract-specific, including the
                               incurrence of additional costs (such as costs related to
                               getting a driver or equipment in place) or allocation of fixed
                               costs (such as insurance and license costs) over fewer
                               contract miles. We have not audited or validated the area's
                               negotiated savings. The area will provide full
                               documentation when they have implemented all trip
                               proposals.

                               Network management is dynamic and transportation
                               requirements continually change. We thanked the area for
                               their rapid implementation of most of our proposals. The
                               Postal Service is now realizing transportation savings
                               because of the area's quick response.

 Recommendation                We recommend the vice president, Eastern Area
                               Operations:

                                   1. Verify the actual cancellation, modification, or
                                      substitution of the 29 trips with which Postal Service
                                      managers agreed and give the date action was taken.

 Management’s                  Management agreed with our finding and recommendation.
 Comments                      They stated that 25 agreed trip amendments had been
                               completed and reported and that the additional 4 were in
                               review or negotiation. Management generally agreed with
                               our savings estimates, but noted their calculations varied
                               because they were annualized and actual modifications
                               were negotiated based on factors such as contractor fixed
                               cost and overhead. Management’s comments, in their
                               entirety, are included in Appendix D of this report.

 Evaluation of                 Management’s comments are responsive to our
 Management’s                  recommendation. We examined and reconciled the
 Comments                      annualized savings management reported. Given the



                                                    5
Surface Transportation – Bulk Mail Center Highway                                    NL-AR-05-003
 Transportation Routes – Eastern Area


                               dynamic nature of the highway transportation network and
                               the factors management cited, we consider the differential
                               between our estimated savings and the annualized
                               negotiated amounts insignificant. Management’s actions,
                               taken or planned, should correct the issues identified in the
                               finding.

 Recommendation                We recommend the vice president, Eastern Area
                               Operations:

                                   2. Reassess the six trips which Postal Service
                                      managers still feel are necessary, cancel or modify
                                      trips as indicated by the reassessment, and
                                      document the reasons for retaining the other trips.

 Management’s                  Management agreed with our recommendation. They
 Comments                      stated that they would reassess the six trips they initially felt
                               were still necessary and would document the reassessment
                               finding within 60 days.

 Evaluation of                 Management’s comments are responsive to our
 Management’s                  recommendation and we consider their agreement to
 Comments                      reassess the six trips sufficient to address it. Management’s
                               actions, taken or planned, should correct the issues
                               identified in the finding.




                                                    6
Surface Transportation – Bulk Mail Center Highway                                                                       NL-AR-05-003
 Transportation Routes – Eastern Area


                                            APPENDIX A. PRIOR REPORT COVERAGE


                                                                               Number of                       Number of  Number of
                                                                                 Trips                         Trips With Trips With   Number of
                                                                               Identified       Potential        Which      Which    Trips Identified
                                                                  Report Final    for            Savings      Management Management         by
                  Report Name                       Report Number Issue Date Elimination        Identified      Agreed    Disagreed   Management

Highway Network Scheduling - Pacific Area           TD-AR-02-003   9/24/2002      158       $     4,500,417       76           34            48
Highway Network Scheduling - Northeast Area         TD-AR-03-002   11/25/2002      18              776,992        10            8
Highway Network Scheduling - Capital Metro Area     TD-AR-03-007    3/28/2003      34            1,144,218        20           14
Highway Network Scheduling - New York Metro
 Area                                               TD-AR-03-008    3/31/2003      32              470,123        12           20
Highway Network Scheduling - Southwest Area         TD-AR-03-010    7/11/2003     249            5,989,082        148          101
Highway Network Scheduling - Western Area           TD-AR-03-013    9/23/2003     70             2,721,530         30           40
Highway Network Scheduling - Southeast Area         TD-AR-03-014    9/26/2003     101           11,352,881         23          24            54
Highway Network Scheduling - Eastern Area           TD-AR-03-015    9/30/2003     181           10,577,367        128          53
Highway Network Scheduling - Great Lakes Area       NL-AR-04-003    3/29/2004     72             5,352,877         48           22           2
Bulk Mail Center Transportation Routes - Great
Lakes Area                                          NL-AR-04-004    9/29/2004      96            7,660,533        49            7            40

                      Totals                                                     1,011      $   50,546,020        544          323          144




                                                                         7
Surface Transportation – Bulk Mail Center Highway                                                                     NL-AR-05-003
 Transportation Routes – Eastern Area



                                             APPENDIX B
                           TRIPS IDENTIFIED DURING AUDIT WORK WITH WHICH
                                  POSTAL SERVICE MANAGERS AGREED

 Effective
  Date of    End Date                           Specific                        Annual     Estimated                   Estimated
   Last         of        HCR        Trip      Recommen-          Origin to     Budget      Contract   Cancellation      Cost
 Change      Contract    Number     Number       dation          Destination     Cost        Cost         Fees          Savings
                                                                 Greensburg
                                                Eliminate
                                                                   MPC to
 7/1/2003    6/30/2007     15690       803     Wednesday/                        $8,902     $20,770      $2,967         $17,803
                                                                  Pittsburgh
                                                Thursday
                                                                     BMC
                                                                  Pittsburgh
                                                Eliminate
                                                                   BMC to
 7/1/2003    6/30/2007     15690       804     Wednesday/                        $8,902     $20,770      $2,967         $17,803
                                                                 Greensburg
                                                Thursday
                                                                     MPC
                                                                New Castle to
 7/1/2003    6/30/2007     16191       807      Cancel 807        Pittsburgh    $23,194     $54,119      $7,731         $46,388
                                                                     BMC
                                                                  Pittsburgh
 7/1/2003    6/30/2007     16191       808      Cancel 808      BMC to New      $23,194     $54,119      $7,731         $46,388
                                                                    Castle
                                                                   Altoona
                                                    Eliminate
                                                                   P&DF to
 2/21/2004   6/30/2005     16690       805          Saturday/                   $17,546     $70,182        $0           $70,182
                                                                  Pittsburgh
                                                     Sunday
                                                                     BMC
                                                                  Pittsburgh
                                                    Eliminate
                                                                   BMC to
 2/21/2004   6/30/2005     16690       806          Saturday/                   $17,546     $70,182        $0           $70,182
                                                                   Altoona
                                                     Sunday
                                                                    P&DF
                                                Changes
                                                                Philadelphia
                                               were drafted
                                                                BMC to New
                                                    by
 2/7/2004    6/30/2005     19212      Many                         Jersey       $182,347   $729,389        $0           $729,389
                                               Philadelphia
                                                                International
                                               and Eastern
                                                                   & BMC
                                                   Area


                                                                            8
Surface Transportation – Bulk Mail Center Highway                                                                   NL-AR-05-003
 Transportation Routes – Eastern Area


 Effective
  Date of    End Date                           Specific                       Annual    Estimated                   Estimated
   Last         of        HCR        Trip      Recommen-         Origin to     Budget     Contract   Cancellation      Cost
 Change      Contract    Number     Number       dation         Destination     Cost       Cost         Fees          Savings
                                                                Philadelphia
                                                Eliminate all
                                                                  BMC to
 1/24/2004   6/30/2005     19214       805      but Monday                     $85,422   $341,686        $0           $341,686
                                                                 Springfield
                                                and Sunday
                                                                    BMC
                                                                 Springfield
                                                Eliminate all
                                                                  BMC to
 1/24/2004   6/30/2005     19214       806      but Monday                     $85,422   $341,686        $0           $341,686
                                                                Philadelphia
                                                and Sunday
                                                                    BMC
                                                                Philadelphia
                                                    Eliminate
 2/21/2004   6/30/2005     19215       803                        BMC to       $40,437   $161,749        $0           $161,749
                                                    Monday
                                                                Detroit BMC
                                                                Detroit BMC
                                                    Eliminate        to
 2/21/2004   6/30/2005     19215       802                                     $40,437   $161,749        $0           $161,749
                                                    Monday      Philadelphia
                                                                    BMC
                                                                Philadelphia
                                                    Eliminate
                                                                  BMC to
 4/4/2004    6/30/2005     19216       803          Tuesday                    $41,350   $165,401        $0           $165,401
                                                                 Cincinnati
                                                       only
                                                                    BMC
                                                                 Cincinnati
                                                    Eliminate
                                                                  BMC to
 4/4/2004    6/30/2005     19216       804          Tuesday                    $41,350   $165,401        $0           $165,401
                                                                Philadelphia
                                                       only
                                                                    BMC
                                                                Greensboro
                                                    Eliminate     P&DC to
 9/4/2004    6/30/2005     270L4       13                                      $93,700   $374,799        $0           $374,799
                                                       Trip      Columbia
                                                                   P&DC
                                                                 Columbia
                                                    Eliminate     P&DC to
 9/4/2004    6/30/2005     270L4       16                                      $83,046   $332,185        $0           $332,185
                                                       Trip     Greensboro
                                                                   P&DC
                                                                Greensboro
                                                    Eliminate
 2/21/2004   6/30/2005     27414       801                       BMC to St     $54,370   $217,482        $0           $217,482
                                                    Thursday
                                                                Louis BMC



                                                                           9
Surface Transportation – Bulk Mail Center Highway                                                                   NL-AR-05-003
 Transportation Routes – Eastern Area


 Effective
  Date of    End Date                           Specific                       Annual    Estimated                   Estimated
   Last         of        HCR        Trip      Recommen-          Origin to    Budget     Contract   Cancellation      Cost
 Change      Contract    Number     Number       dation         Destination     Cost       Cost         Fees          Savings
                                                                St Louis BMC
                                                    Eliminate          to
 2/21/2004   6/30/2005     27414       802                                     $54,370   $217,482        $0           $217,482
                                                    Thursday     Greensboro
                                                                     BMC
                                                 Eliminate       Greensboro
 2/21/2004   6/30/2005     27417       803      Saturday or        BMC to      $39,064   $156,255        $0           $156,255
                                                  Sunday        Detroit BMC
                                                                Detroit BMC
                                                 Eliminate
                                                                       to
 2/21/2004   6/30/2005     27417       804      Saturday or                    $39,064   $156,255        $0           $156,255
                                                                 Greensboro
                                                  Sunday
                                                                     BMC
                                                                  Columbus
                                                    Eliminate      P&DC to
 3/20/2004   6/30/2006     43090       821                                     $7,282     $9,709       $1,214          $8,495
                                                     Sunday       Cincinnati
                                                                     BMC
                                                                  Cincinnati
                                                    Eliminate      BMC to
 3/20/2004   6/30/2006     43090       822                                     $7,282     $9,709       $1,214          $8,495
                                                     Sunday       Columbus
                                                                    P&DC
                                                                  Cleveland
                                                                   P&DC to
 2/21/2004   6/30/2005     44091       833      Cancel 833                     $8,409     $33,637        $0           $33,637
                                                                 Pittsburgh
                                                                     BMC
                                                                 Pittsburgh
                                                                   BMC to
 2/21/2004   6/30/2005     44091       834      Cancel 834                     $8,409     $33,637        $0           $33,637
                                                                  Cleveland
                                                                    P&DC
                                                  Change        Youngstown
                                                 frequency         P&DC to
 3/20/2004   6/30/2005     44491       801                                     $13,733    $54,932        $0           $54,932
                                                from Q6 to        Pittsburgh
                                                    457              BMC
                                                  Change          Pittsburgh
                                                 frequency         BMC to
 3/20/2004   6/30/2005     44491       802                                     $13,733    $54,932        $0           $54,932
                                                from Q6 to      Youngstown
                                                    457             P&DC


                                                                          10
Surface Transportation – Bulk Mail Center Highway                                                                           NL-AR-05-003
 Transportation Routes – Eastern Area


 Effective
  Date of    End Date                            Specific                         Annual       Estimated                     Estimated
   Last         of         HCR        Trip      Recommen-         Origin to       Budget        Contract     Cancellation      Cost
 Change      Contract     Number     Number       dation        Destination        Cost          Cost           Fees          Savings
                                                                   Canton
                                                    Eliminate     P&DC to
 8/7/2004    6/30/2008     44691       807                                         $7,905       $26,350        $2,635         $23,715
                                                       807       Pittsburgh
                                                                    BMC
                                                                 Pittsburgh
                                                    Eliminate      BMC to
 8/7/2004    6/30/2008     44691       808                                         $7,683       $25,611        $2,561         $23,050
                                                       808         Canton
                                                                   P&DC
                                                                  Cincinnati
                                                    Eliminate
 3/20/2004   6/30/2007     45218       805                         BMC to         $63,888       $149,071       $21,296        $127,775
                                                    Monday
                                                                Dallas BMC
                                                                Dallas BMC
                                                    Eliminate
 3/20/2004   6/30/2007     45218       806                      to Cincinnati     $63,888       $149,071       $21,296        $127,775
                                                    Monday
                                                                    BMC
              TOTALS                    29                                       $1,181,873*   $4,358,322*     $71,612       $4,286,710*

BMC             Bulk Mail Center
P&DC            Processing and Distribution Center
P&DF            Processing and Distribution Facility
MPC             Mail Processing Facility

*Due to rounding differences from the source documentation, totals vary slightly when recalculated.




                                                                            11
Surface Transportation – Bulk Mail Center Highway                                                                        NL-AR-05-003
 Transportation Routes – Eastern Area


                                             APPENDIX C
                           TRIPS IDENTIFIED DURING AUDIT WORK WITH WHICH
                               POSTAL SERVICE MANAGERS DISAGREED

 Effective
  Date of    End Date                             Specific                         Annual     Estimated                    Estimated
   Last         of         HCR        Trip       Recommen-          Origin to      Budget      Contract   Cancellation       Cost
 Change      Contract     Number     Number        dation         Destination       Cost        Cost         Fees           Savings
                                                                  Williamsport
                                                                    P&DF to
 7/1/2004    6/30/2008     17790       805      Eliminate 805                     $76,308     $254,361      $25,436         $228,925
                                                                  Philadelphia
                                                                      BMC
                                                                  Philadelphia
                                                                     BMC to
 7/1/2004    6/30/2008     17790       806      Eliminate 806                     $59,091     $196,969      $19,697         $177,272
                                                                  Williamsport
                                                                     P&DF
                                                                Scranton P&DF
 7/1/2004    6/30/2008     18490       805      Eliminate 805   to Philadelphia   $10,115      $33,715      $3,372          $30,344
                                                                      BMC
                                                                  Philadelphia
 7/1/2004    6/30/2008     18490       806      Eliminate 806        BMC to       $10,115      $33,715      $3,372          $30,344
                                                                Scranton P&DF
                                                                  Youngstown
 3/20/2004   6/30/2005     44491       809      Eliminate 809       P&DC to        $4,747      $18,988        $0            $18,988
                                                                Pittsburgh BMC
                                                                Pittsburgh BMC
 3/20/2004   6/30/2005     44491       810      Eliminate 810   to Youngstown      $4,747      $18,988        $0            $18,988
                                                                     P&DC

              TOTALS                     6                                        $165,122*   $556,735*    $51,876*        $504,859*


BMC             Bulk Mail Center
P&DC            Processing and Distribution Center
P&DF            Processing and Distribution Facility

*Due to rounding differences from the source documentation, totals vary slightly when recalculated.

                                                                      12
Surface Transportation – Bulk Mail Center Highway        NL-AR-05-003
 Transportation Routes – Eastern Area



                   APPENDIX D. MANAGEMENT’S COMMENTS




                                                    13
Surface Transportation – Bulk Mail Center Highway        NL-AR-05-003
 Transportation Routes – Eastern Area




                                                    14
Surface Transportation – Bulk Mail Center Highway        NL-AR-05-003
 Transportation Routes – Eastern Area




                                                    15
